HHS/OIG, Audit -"Review of Community Renewal Team, Inc. Compensation Practices for Executives and Teachers,"(A-01-04-02501)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Community Renewal Team, Inc. Compensation Practices for Executives and Teachers," (A-01-04-02501)
March 14,  2005
Complete
Text of Report is available in PDF format (1.2 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether Community Renewal Team Inc.s (CRT) compensation and related expenses
for five key executives and teachers were reasonable and consistent with Federal requirements and guidelines.  We
found that the teachers compensation level was both reasonable and consistent with Federal requirements.  However,
CRT did not complete a wage comparability study to support its executive compensation.  In this regard, three out
of the five key executives exceeded the average rate of compensation paid to the Chief Executive Officers of Head Start
agencies in Connecticut.  In addition, CRT did not provide written evidence that its Board of Directors followed established
procedures in approving the CEOs compensation level.  Further, CRT did not maintain adequate documentation to show
that $177,867 in travel, restaurant, and other credit card charges incurred by four of the executives and charged to an
indirect expense account complied with Federal requirements.  We recommended that CRT establish and implement controls
for executive compensation, as well as refund $57,483 in unallowable business related expenses allocated to Head Start
and other Federal programs.  CRT generally concurred with our recommendations, however did not agree with the sources
of information we used for the salary comparison.